Diners Club®
Charge Card
Cardmember
Agreement

Cardmember Agreement
This document and the card carrier that is sent with
the card together make up your Card Agreement and
throughout this document are referred to as Agreement
or Card Agreement. The card carrier contains important
account information including the amount of any
membership fee. Please read and keep these documents
for your records. This Agreement is binding on you unless
you cancel your account within 30 days after receiving
the card and you have not used or authorized use of your
account.
To simplify this Agreement for you, the following
definitions will apply. The words you, your, and yours
mean all persons responsible for complying with this
Agreement, including the person who applied to open
the account and the person to whom we address billing
statements. The word card means one or more cards
or other access devices, such as account numbers, that
we have issued to permit you to obtain credit under this
Agreement. The words we, us, and our mean BMO Harris
Bank N.A. and its successors and assigns, the issuer of your
account. The words authorized user mean any person to
whom you give permission to use your account.
Disclosures for Active Duty Members of the Military
and their Dependents
The following applies to members of the military and their
dependents if, at the time you establish a covered account,
you are an active duty member of the military or you are
a dependent of an active duty member of the military (as
set forth in the Military Lending Act, 10 U.S.C. 987, and its
implementing regulations).
The Arbitration Provision of this Agreement does not apply
to individuals covered by this section.
Using Your Account and Your Credit Line
The card must be signed to be used. Whether you sign the
card or not, you are fully responsible for complying with
all the terms of this Agreement, including the obligation
to pay us for all balances due on your account as specified
in this Agreement. Your card must only be used for lawful
transactions and may not be used to purchase goods or
services for resale.
Your card can be used to buy or lease goods or services
wherever the card is honored. Your account has a credit
limit, which may appear on your statement as a spend
limit. The full amount of the credit limit is available to use
where the card is honored. Subject to applicable law, we
may reduce your credit limit at any time.

Your account may also include a cash limit, which will be
a percentage of and subject to your credit limit. With the
Club Cash® feature, your card can also be used to obtain
cash through any bank or automated teller machine that
accepts the card, subject to your credit limit. We may
reduce your cash limit at any time, and we may limit the
frequency and amount of cash withdrawals you may make
in any time period.
We will notify you of any new credit or cash limit either by
sending you a notice or through your billing statement. A
change to your cash or credit limits may take effect before you
receive notification from us. You should always keep your total
balance below the credit limit. However, if the total due goes
over your credit limit you must still pay us.
Additional Cards
You may request additional cards on your account for
yourself or others and you may permit an authorized user
to have access to the card or account number. However,
if you do, you must pay us for all charges made by those
persons, including charges for which you may not have
intended to be responsible. You must notify us to revoke
an authorized user’s permission to use your account. If you
do so, we may close the account and issue a new card or
cards with a different account number. You are responsible
for the use of each card issued on your account according
to the terms of this Agreement.
Annual Membership Fee
The annual membership fee is $95 for the primary card
and $35 for each additional card. The fee is non-refundable
unless you notify us that you wish to cancel your account
within 30 days from the mailing or delivery date of the
billing statement on which the fee is billed.
Billing
Your billing statement shows the total due, any interest
charges and fees imposed during the billing cycle, and
the payment due date. It also shows your current credit
limit; an itemized list of current charges, payments and
credits; an interest charge summary; and other important
information. If we deem your account uncollectible or if we
institute delinquency collection proceedings by sending it
to an outside collection agency or attorney for collection,
we may, in our sole discretion, stop sending you billing
statements, unless otherwise prohibited by applicable law.
You must notify us of a change in your address by
contacting Customer Service by telephone or mail. We will
mail or deliver the billing statement to only one address.

Automatic Billing Updater Service
We participate in the Mastercard® Automatic Billing
Updater (ABU) service. When your card number or
expiration date is updated, or your account is closed, we
will provide the updated card information to merchants
who participate in ABU with whom you have automatic
billing arrangements (such as telephone, cable companies,
insurance and health clubs). Since not all merchants
participate in ABU, you should notify each merchant with
whom you have automatic billing arrangements of the
updated card information to ensure your payments are
not interrupted. If you do not want us to provide your card
updates through ABU, please call the customer service
number on the back of your charge card and allow 60 days
for your opt out to take effect.
How We Determine the Balance
The total outstanding balance (the amount you owe us)
appears as the “New Balance” on the billing statement.
To determine the New Balance, we begin with the
outstanding balance on your account at the beginning
of each billing period, called the “Previous Balance” on
the billing statement. We add any purchases and cash
advances and subtract any credits or payments credited as
of that billing period. We then add the appropriate interest
charges and fees and make other applicable adjustments.
Transaction Fee for Club Cash® Advances
You have obtained a cash advance for which we assess a
cash advance transaction fee if you obtain funds from an
automated teller machine (ATM), through home banking,
or through a financial institution; make a wire transfer;
acquire a money order, traveler’s check, lottery ticket,
betting or casino chip, or similar item; or engage in another
similar transaction. For each cash advance, we add an
additional charge of 4.0% of the advance, but not less
than $4. The amount of the cash advance may include a
surcharge that the ATM owner imposes.
Credit Balance
You may not maintain a credit balance in excess of your credit
limit. We will return to you any credit amount over $1.00 if the
amount has been on your account longer than six months. You
may request a refund of a credit balance at any time. We may
reduce the amount of any credit balance by the amount of new
charges billed to your account.

Transaction Fee for Purchases Made in
Foreign Currencies
For each purchase made in a foreign currency, we add to
your account an additional fee of 3.0% of the amount of
the purchase after its conversion into U.S. dollars.
Information on Foreign Currency
Conversion Procedures
Any purchase you make in a foreign currency or any cash
advance you obtain in a foreign currency will be charged
to your account in U.S. dollars after being converted by
Mastercard®*. Mastercard will act in accordance with its
procedures then in effect. Mastercard uses a Mastercard
conversion rate in effect on the day the purchase or
cash advance transaction is processed. The Mastercard
conversion rate is either a government-mandated rate or a
wholesale market rate.
The foreign currency conversion rate in effect on the
processing date for a transaction may differ from the
rate in effect on the sale or posting date on your billing
statement for that transaction. If a transaction is converted
by a third party prior to that transaction being processed
by Mastercard, the foreign currency conversion rate for that
transaction will be the rate selected by that third party.
Total Due
Each month you must pay the Total Due that is shown
on your billing statement. Your Total Due equals the New
Balance.
Payments
You must pay the Total Due by the payment due date.
Instructions for making payments are on your billing
statement. In order to be credited as of a particular day,
your payment must be received in the form specified, and
by the hour specified, in those instructions. Do not send
cash payments. We can accept late or partial payments,
as well as payments that reflect “paid in full” or other
restrictive endorsements, without losing any of our rights
under this Agreement. You agree to pay us in U.S. dollars
drawn on funds on deposit in the United States using a
payment check, similar instrument, or automatic debit that
will be processed and honored by your bank. We reserve
the right to accept payments made in foreign currency and
instruments drawn on funds on deposit outside the United
States. If we do, we will select the effective currency
conversion rate at our discretion and credit your account
in U.S. dollars after deducting any fees or costs incurred
in connection with processing your payment. If such fees

or costs are not fully deducted at the time your account
is credited for a payment, we will bill you separately for
them.
Optional Payment Services
Online Payments. You may pay your account online or you
may request to make your payment by phone using our
optional telephone payment service. Subject to applicable
law, each time a representative of ours helps expedite your
payment, you agree to pay us $14.95. Our representatives
are trained to tell you this amount if you decide to use this
optional telephone payment service.
In-Branch Payments. If you have a Diners Club branded
card, you may deliver your payment during normal
business hours to a Customer Service Representative at any
bank branch identified by the BMO Harris name, brand or
logo. We will credit such payments on the day we receive
them.
Late Fee
Any portion of the Total Due from a previous billing period
that remains unpaid will appear as a Past Due balance
on the current card billing statement. In addition, we will
impose a late fee of up to $35. If you do not pay a Past
Due amount for two consecutive billing cycles we will
assess a late fee of up to $35 or 2.5% of the entire Past
Due balance each time any portion of a Total Due balance
is included in a Past Due balance and the Past Due Balance
is more than $80. The fee will not exceed the amount
permitted by applicable law.
Returned Payment Fee
Subject to applicable law, we may add a fee of up to
$29 to the account when a payment check or similar
instrument is not honored, when we must return it
because it cannot be processed, or when an automatic
debit is returned unpaid. At our option, we may assess this
fee the first time your check or payment is not honored,
even if it is honored upon resubmission. The fee will not
exceed the amount permitted by applicable law.
Fees Disclosed at Time of Request
Unless prohibited by law, we also may charge you other
fees from time to time. If a fee applies to your account, we
will tell you the amount of the fee at the time you request
the service.
Some fees that may apply to your account include:
1.	A Replacement Card Fee if you request a replacement
Card;

2.	An Expedited Delivery Fee (in addition to any other
applicable fees) if you ask us to send a card by
expedited delivery;
3.	A Dual Statement Fee if you ask us to send your
Statements in both paper and electronic form;
4.	A Document Fee if you ask us to provide copies of
documents, such as sales slips and receipts; and
5.	An Expedited Payment Fee if a representative of ours
helps expedite your payment.
Lost or Stolen Cards or Account Numbers
If any card or account number is lost or stolen, or if you
think someone used or may use them without your
permission, notify us at once by calling the Customer
Service telephone number shown on the billing statement
or the number obtained by calling toll-free or local
Directory Assistance. We may require you to provide
certain information in writing to help us find out what
happened, and to comply with such procedures as we
may require in connection with our investigation. Don’t
use the card or account number after we’ve been notified,
even if they are found or returned. You may be liable for
unauthorized use of the account, but not for more than
$50. You won’t be liable for unauthorized purchases or
cash advances made after we’ve been notified of the loss
or the theft; however, you must identify for us the charges
on the billing statement that were not made by you, or
someone authorized by you, and from which you received
no benefit.
Default
You default under this Agreement if you fail to pay,
by its due date, the Total Due listed on each billing
statement; file for bankruptcy; pay by a check or similar
instrument that is not honored or that we must return
because it cannot be processed; pay by automatic debit
that is returned unpaid; or default under any other Card
Agreement that you have with us. If you default, we may,
subject to applicable law, close your account and demand
immediate payment of the total balance. For residents
of New Hampshire: Reasonable attorneys’ fees will be
rewarded to you if you prevail in any action or suit brought
by BMO Harris Bank N.A. Also, if you successfully assert
a partial defense or counterclaim to an action brought by
BMO Harris Bank N.A., the court may withhold from BMO
Harris Bank N.A. the entire amount or such portion of the
attorneys’ fees as the court considers equitable.

Preauthorized Charges
If you default, if the card is lost or stolen, or we change
your account or account number for any reason, we
may suspend automatic charges on that account to third
party vendors for insurance premiums or other goods or
services. If preauthorized charges are suspended, you must
contact the third party vendor to reinstate them. You are
responsible for making direct payment for such charges
until you reinstate automatic charges.
Collection Costs
If we refer collection of your account to a lawyer who is
not our salaried employee, to the extent not prohibited
by applicable law, you will be liable for any reasonable
attorney’s fees we incur, plus the costs and expenses of
any legal action.
ARBITRATION
PLEASE READ THIS PROVISION OF THE AGREEMENT
CAREFULLY. IT PROVIDES THAT ANY DISPUTE MAY BE
RESOLVED BY BINDING ARBITRATION. ARBITRATION
REPLACES THE RIGHT TO GO TO COURT, INCLUDING THE
RIGHT TO A JURY AND THE RIGHT TO PARTICIPATE IN A
CLASS ACTION OR SIMILAR PROCEEDING. IN ARBITRATION,
A DISPUTE IS RESOLVED BY AN ARBITRATOR INSTEAD OF A
JUDGE OR JURY. ARBITRATION PROCEDURES ARE SIMPLER
AND MORE LIMITED THAN COURT PROCEDURES.
Agreement to Arbitrate
Either you or we may, without the other’s consent, elect
mandatory, binding arbitration for any claim, dispute, or
controversy between you and us (called “Claims”).
Claims Covered
•	What Claims are subject to arbitration? All Claims
relating to your account, a prior related account, or our
relationship are subject to arbitration, including Claims
regarding the application, enforceability, or interpretation
of this Agreement and this arbitration provision. All
Claims are subject to arbitration, no matter what legal
theory they are based on or what remedy (damages, or
injunctive or declaratory relief) they seek. This includes
Claims based on contract, tort (including intentional
tort), fraud, agency, your or our negligence, statutory
or regulatory provisions, or any other sources of law;
Claims made as counterclaims, cross-claims, thirdparty claims, interpleaders or otherwise; and Claims
made independently or with other claims. A party who
initiates a proceeding in court may elect arbitration
with respect to any Claim advanced in that proceeding

by any other party. Claims and remedies sought as
part of a class action, private attorney general or other
representative action are subject to arbitration on an
individual (non-class, non-representative) basis, and the
arbitrator may award relief only on an individual (nonclass, non-representative) basis.
•	Whose Claims are subject to arbitration? Not only
ours and yours, but also Claims made by or against
anyone connected with us or you or claiming through us
or you, such as a co-applicant or authorized user of your
account, an employee, agent, representative, affiliated
company, predecessor or successor, heir, assignee, or
trustee in bankruptcy.
•	What time frame applies to Claims subject to
arbitration? Claims arising in the past, present, or
future, including Claims arising before the opening of
your account, are subject to arbitration.
•	Broadest interpretation. Any questions about whether
Claims are subject to arbitration shall be resolved by
interpreting this arbitration provision in the broadest
way the law will allow it to be enforced. This arbitration
provision is governed by the Federal Arbitration Act (the
“FAA”).
•	What about Claims filed in Small Claims Court?
Claims filed in a small claims court are not subject
to arbitration, so long as the matter remains in such
court and advances only an individual (non-class, nonrepresentative) Claim.
How Arbitration Works
•	How does a party initiate arbitration? The party filing
an arbitration must choose one of the following two
arbitration firms and follow its rules and procedures
for initiating and pursuing an arbitration: American
Arbitration Association or JAMS. Any arbitration hearing
that you attend will be held at a place chosen by the
arbitration firm in the same city as the U.S. District Court
closest to your then current billing address, or at some
other place to which you and we agree in writing. You
may obtain copies of the current rules of each of the
arbitration firms and forms and instructions for initiating
an arbitration by contacting them as follows:
American Arbitration Association
800-778-7879 (toll free) Website: www.adr.org
JAMS
800-352-5267 (toll free) Website: www.jamsadr.com

	At any time you or we may ask an appropriate court to
compel arbitration of Claims, or to stay the litigation of
Claims pending arbitration, even if such Claims are part
of a lawsuit, unless a trial has begun or a final judgment
has been entered. Even if a party fails to exercise these
rights at any particular time, or in connection with any
particular Claims, that party can still require arbitration at
a later time or in connection with any other Claims.
•	What procedures and law are applicable in
arbitration? A single, neutral arbitrator will resolve
Claims. The arbitrator will be either a lawyer with
at least ten years experience or a retired or former
judge, selected in accordance with the rules of the
arbitration firm. The arbitration will follow procedures
and rules of the arbitration firm in effect on the date
the arbitration is filed unless those procedures and
rules are inconsistent with this Agreement, in which
case this Agreement will prevail. Those procedures and
rules may limit the discovery available to you or us. The
arbitrator will take reasonable steps to protect customer
account information and other confidential information if
requested to do so by you or us. The arbitrator will apply
applicable substantive law consistent with the FAA and
applicable statutes of limitations, will honor claims of
privilege recognized at law, and will have the power to
award to a party any damages or other relief provided
for under applicable law. You or we may choose to have
a hearing and be represented by counsel. The arbitrator
will make any award in writing and, if requested by
you or us, will provide a brief statement of the reasons
for the award. An award in arbitration shall determine
the rights and obligations between the named parties
only, and only in respect of the Claims in arbitration, and
shall not have any bearing on the rights and obligations
of any other person, or on the resolution of any other
dispute.
•	Who pays? Whoever files the arbitration pays the initial
filing fee. If we file, we pay; if you file, you pay, unless
you get a fee waiver under the applicable rules of the
arbitration firm. If you have paid the initial filing fee
and you prevail, we will reimburse you for that fee. If
there is a hearing, we will pay any fees of the arbitrator
and arbitration firm for the first day of that hearing. All
other fees will be allocated as provided by the rules of
the arbitration firm and applicable law. However, we
will advance or reimburse your fees if the arbitration
firm or arbitrator determines there is good reason for
requiring us to do so, or if you ask us and we determine

there is good reason for doing so. Each party will bear
the expense of that party’s attorneys, experts, and
witnesses, and other expenses, regardless of which
party prevails, but a party may recover any or all
expenses from another party if the arbitrator, applying
applicable law, so determines.
•	Who can be a party? Claims must be brought in the
name of an individual person or entity and must proceed
on an individual (non-class, non-representative) basis.
The arbitrator will not award relief for or against anyone
who is not a party. If you or we require arbitration of
a Claim, neither you, we, nor any other person may
pursue the Claim in arbitration as a class action, private
attorney general action or other representative action,
nor may such Claim be pursued on your or our behalf
in any litigation in any court. Claims, including assigned
Claims, of two or more persons may not be joined
or consolidated in the same arbitration. However,
applicants, co-applicants, authorized users on a single
account and/or related accounts, or corporate affiliates
are here considered as one person.
•	When is an arbitration award final? The arbitrator’s
award is final and binding on the parties unless a party
appeals it in writing to the arbitration firm within fifteen
days of notice of the award. The appeal must request a
new arbitration before a panel of three neutral arbitrators
designated by the same arbitration firm. The panel will
consider all factual and legal issues anew, follow the
same rules that apply to a proceeding using a single
arbitrator, and make decisions based on the vote of the
majority. Costs will be allocated in the same way they
are allocated for arbitration before a single arbitrator. An
award by a panel is final and binding on the parties after
fifteen days has passed. A final and binding award is
subject to judicial review and enforcement as provided by
the FAA or other applicable law.
Survival and Severability of Terms
This arbitration provision shall survive: (i) termination or
changes in the Agreement, the account, or the relationship
between you and us concerning the account; (ii) the
bankruptcy of any party; and (iii) any transfer, sale or
assignment of your account, or any amounts owed on your
account, to any other person or entity. If any portion of this
arbitration provision is deemed invalid or unenforceable,
the entire arbitration provision shall not remain in force.
No portion of this arbitration provision may be amended,
severed, or waived absent a written agreement between
you and us.

Credit Reporting
We may report information about your account to credit
bureaus. Late payments, missed payments, or other
defaults on your account may be reflected on your credit
report. If you request additional cards on your account
for others, you understand that we may report account
information in your name as well as in the names of those
other people. We may also obtain follow-up credit reports
on you (for example, when we review your account for
a credit line increase). If you wish to know the names of
the agencies we have contacted, write us at the Customer
Service address listed on the billing statement. We will try
to notify you by telephone or by mail of any legal process
served on us in order to give you an opportunity to object
to it, unless the law prohibits the notice. If you think
we reported erroneous information to a credit reporting
agency, write us at the Customer Service address listed
on the billing statement. We will promptly investigate the
matter. We will then tell you if we agree or disagree with
you. If we agree, we will contact each credit reporting
agency to which we reported and will request they correct
the report. If we disagree with you after our investigation,
we will tell you in writing or by telephone and instruct
you how to submit a statement of your position to those
agencies. Your statement will become a part of your
credit record with them. As required by Utah law, you are
hereby notified that a negative credit report reflecting on
your credit record may be submitted to a credit reporting
agency if you fail to fulfill the terms of your credit
obligations.
Consent to Telephone Calls and Monitoring
You authorize us (which includes, for the purposes
of this paragraph, our agents and representatives) to
contact you using automatic telephone dialing systems,
artificial or prerecorded voice message systems, email
and text messaging systems in order to provide you
with information regarding your account, including
information about missed payments, the suspected misuse
of your card, or general servicing items. You authorize
us to make such contacts using any telephone numbers
(including wireless, landline and Voice Over Internet
Protocol numbers) you have supplied or will supply to
us in connection with your account or any other account
you may have or will establish with us. You understand
that anyone with access to your telephone may listen
to or read the messages we leave or send you, and you
agree that we will have no liability for anyone accessing
such messages. You further understand that, when you
receive a telephone call or text message, you may incur

a charge from the company that provides you with
telecommunications, wireless and/or data services, and
you agree that we will have no liability for such charges.
You expressly authorize us to monitor and record your calls
with us. You agree that you are the owner and/or primary
user of any telephone number or email address you
provide to us and that you will notify us if this is no longer
true as to any such telephone number or email address.
Closing Your Account
You may close your account at any time by notifying
us in writing or over the phone. However, you remain
responsible to pay the total balance according to the terms
of this Agreement. We may close your account or suspend
your account privileges at any time for any reason not
prohibited by applicable law without prior notice. We may
also reissue a different card or account number at any
time. You must return the card to us upon request.
Refusal of the Card
We are not responsible if a transaction on your account is
not approved, either by us or by a third party, even if you
have sufficient credit available. We may limit the number
of transactions that may be approved in one day. If we
detect unusual or suspicious activity on your account, we
may suspend your credit privileges until we can verify the
activity.
Changing this Agreement
We may change the rates, fees, and terms of this
Agreement from time to time as permitted by law.
Changing terms includes adding, replacing, or deleting
provisions of this Agreement. These changes are
binding on you. Subject to applicable law, we will give
you advance written notice of the changes and a right
to opt out to the extent required by law.
Enforcing this Agreement
We can delay in enforcing or fail to enforce any of our
rights under this Agreement without losing them.
Assignment
We may assign any or all of our rights and obligations
under this Agreement to a third party.
Applicable Law
The terms and enforcement of this Agreement shall be
governed by federal law and the law of Illinois, where
we are located. This Agreement and your account are
governed by, to the extent that state law applies, the law
of Illinois without regard to its conflict of law principles.

Further, this Agreement is made in Illinois and credit is
extended to you from Illinois, regardless of where you live
or use your account.
For Maryland residents only, to the extent federal law
and the laws of the State of Illinois do not apply, this
Agreement is governed by Title 12, Subtitle 9 of the
Maryland Commercial Law Article.
New Jersey Residents
Because certain provisions of this Agreement are subject
to governing law, they may be void, unenforceable or
inapplicable in some jurisdictions. None of these provisions
are void, unenforceable or inapplicable with New Jersey.
Your Billing Rights: Keep this Document for
Future Use
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What To Do If You Find a Mistake On Your Statement
If you think there is an error on your statement, write to
us at the address for billing inquiries and correspondence
shown on the front of your statement.
In your letter, give us the following information:
• Account information: Your name and account number.
•	Dollar amount: The dollar amount of the suspected error.
•	Description of problem: If you think there is an error on
your bill, describe what you believe is wrong and why
you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
•	At least 3 business days before an automated payment
is scheduled, if you want to stop payment on the
amount you think is wrong.
You must notify us of any potential errors in writing.
You may call us, but if you do we are not required to
investigate any potential errors and you may have to pay
the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.	Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we
have already corrected the error.
2.	Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the
bill is correct.
While we investigate whether or not there has been an
error:

•	We cannot try to collect the amount in question, or
report you as delinquent on that amount.
•	The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount.
•	While you do not have to pay the amount in question,
you are responsible for the remainder of your balance.
•	We can apply any unpaid amount against your revolving
credit limit.
After we finish our investigation, one of two things will happen:
•	If we made a mistake: You will not have to pay the
amount in question or any interest or other fees related
to that amount.
•	If we do not believe there was a mistake: You
will have to pay the amount in question, along
with applicable interest and fees. We will send you
a statement of the amount you owe and the date
payment is due. We may then report you as delinquent
if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill
is wrong, you must write to us within 10 days telling
us that you still refuse to pay. If you do so, we cannot
report you as delinquent without also reporting that you
are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we
must let those organizations know when the matter has
been settled between us.
If we do not follow all the rules above, you do not have to
pay the first $50 of the amount you question even if your
bill is correct.
Your Rights If You Are Dissatisfied With Your Credit
Card Purchases
If you are dissatisfied with the goods or services that you
have purchased with your credit card, and you have tried
in good faith to correct the problem with the merchant,
you may have the right not to pay the remaining amount
due on the purchase.
To use this right, all of the following must be true:
1.	The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was
based on an advertisement we mailed to you, or if we
own the company that sold you the goods or services.)
2.	You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or

with a check that accesses your credit card account do
not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still
dissatisfied with the purchase, contact us in writing at the
address for billing inquiries and correspondence shown on
the front of your statement.
While we investigate, the same rules apply to the
disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point, if
we think you owe an amount and you do not pay, we may
report you as delinquent.

Banking products and services are subject to bank and credit approval and are provided
by BMO Harris Bank N.A. Member FDIC.
™	Diners Club, Diners Club International with the Split Circle Device and Club Cash are
registered trademarks of Diners Club International Ltd.
* Mastercard is a registered trademark of Mastercard International Incorporated.

®/

® 	

© 2018 BMO Harris Bank N.A. All Rights Reserved.

F03-W759-0

10058170 (06/18)

